z/
IN THE SUPREME COURT OF THE UNITED STATES

ROOSEVELT JOHNSON,
Petitioner,
Case No.

v.
STATE OF FLORIDA,
Respondent.

PROOF OF SERVICE
Petitioner confined in an institution, hereby certifies that the following Petition for Writ of
Certiorari and Joint Appendix were deposited in the institution's internal mail system for mailing on
June /f, 2020, to the Clerk of the Supreme Court of the United States, One First Street NE,
Washington, DC 20543. First-class postage is being prepaid either by me or by the institution on my
behalf. Further, the Petition and Appendix are also being mailed to Respondent, the Attorney General,
State of Florida, The Capitol Pl-01, Tallahassee, Florida, 32399.
I declare under penalty of perjury that the foregoing is true and correct (See 28 U.S.C. §1746).

Petitioner:
Roosevelt Johrfson
DC# 390758
Okaloosa Correctional Institution
3189 Colonel Greg Malloy Road
Crestview, Florida 32539-6708
Signed on

Institution

*

for mattes*

he®**"®

RECEIVED

JUN 2 h ?n?o
SUPRE^COURT1^^

V.

<

